                                       National Science Foundation
                                            4201 Wilson Boulevard
                                           Arlington, Virginia 22230


Office of Inspector General




MEMORANDUM

DATE:

TO:                David A. Elizalde, Director
                   Division of Acquisition and Cooperative Support (DACS)

FROM:              Deborah H. Cureton
                   Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-07-1-003, Audit of Triumph Technologies, Inc.’s
         Incurred Costs for Fiscal Years 2001 through 2003


In response to NSF’s request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Baltimore Branch Office, to perform an incurred cost audit of Triumph
Technologies, Inc.’s (Triumph) cost-plus-fixed-fee Contract No. DMI-0200639. The period
covered by the audit was November 15, 2001 through December 31, 2003 [Fiscal Years (FYs)
2001 through 2003]1, during which Triumph claimed a total of $1,759,334. The contractor
provides technical support for the NSF’s Small Business Innovative Research/Small Technology
Transfer Research (SBIR/STTR) Program.2

The objectives of the audit were to determine whether:

           •    Triumph’s proposed indirect rates are acceptable for the period January 1, 2003
                through December 31, 2003;

           •    Costs charged to the NSF contract were allowable, allocable and reasonable in
                accordance with contract terms and applicable government acquisition regulations;
                and
           •    Triumph’s accounting system and internal controls were adequate for accumulating
                and billing costs on government contracts, and for administering and monitoring its
                NSF contract in compliance with contract terms and conditions and federal
                requirements.


1
  NSF modified the contract performance period through November 14, 2006. This Modification No. 19 dated June
23, 2006, also allotted an additional $300,000 to the contract and raised the contract award amount $4,292,855.
2
  The program is presently being administered by the Engineering Directorate/Industrial Innovation and Partnerships
(ENG/IIP).
                                                         NSF OIG Audit Report No. OIG-06-1-001


The DCAA audit was performed in accordance with Generally Accepted Government Auditing
Standards. The DCAA audit report is included as an attachment to this memorandum.

DCAA found that Triumph’s proposed Customer Site Overhead (CSOH) and General and
Administrative (G&A) indirect rates are acceptable for the period January 1, 2003 through
December 31, 2003 and that Triumph’s accounting system is adequate for the accumulation,
segregation, and reporting of costs under Government contracts and subcontracts. However,
DCAA questioned a total of $80,740 in claimed costs for FYs 2001 to 2003. This amount is
comprised of $79,548 of costs incurred in excess of contract indirect rate ceilings and $1,192 in
unsupported subcontract costs. Triumph concurred with all of the questioned costs.

DCAA questioned $79,548 because Triumph failed to comply with the indirect rate ceilings of
its NSF contract by claiming costs in excess of the ceilings in its incurred cost submissions for
each of the three years audited. The contract sets forth provisional indirect billing rates of
XXXXX for CSOH and XXXXX for General and Administrative (G&A), and then states:

       “A maximum ceiling on overhead and G&A rates of 5% above those rates stated
       herein is hereby established and will not be exceeded during the life of the
       contract. The final overhead rate for reimbursement of indirect costs incurred
       during the period of performance of the contract shall be the contractor’s actual
       rate or the ceiling rate whichever is less.”

However, DCAA found that Triumph correctly billed NSF using the provisional indirect rates
specified in the NSF contract. However, in each of its incurred cost claims, Triumph claimed its
actual incurred indirect cost rates which exceeded contract ceiling rates, and did not reduce its
actual rates to the contract ceiling rates. Based on the above contract language, the ceiling rates
(calculated at 105% of the provisional billing rates) were XXXXX for Customer Site Overhead
and XXXX for G&A. Based on its audit, DCAA recalculated the indirect costs at the reduced
contract ceiling rates and questioned $79,548 of claimed indirect costs.

As for the $1,192 of unsupported subcontract costs, DCAA Baltimore Branch requested an assist
agreed-upon procedures engagement from DCAA Rosslyn Branch of the subcontractor
Advanced Resources Technologies, Inc. (ARTI) to compare and agree Triumph’s recorded
subcontractor costs to ARTI’s accounting records. As a result of this engagement, DCAA found
Triumph had incorrectly recorded $18,022 of subcontract costs as direct materials. In addition,
DCAA found errors and billings by the subcontractor in excess of costs. After proper
reclassification of the costs, the subcontract costs claimed by Triumph overstated the subcontract
costs that ARTI actually incurred by $1,192. Therefore, DCAA questioned $1,192 of Triumph’s
unsupported subcontract costs and ARTI agreed to refund Triumph for the unsupported costs.

DCAA found that Triumph’s accounting system was acceptable for accumulating and billing
costs on government contracts. However, the auditors identified several internal control
deficiencies (all stemming from lack of adequate written policies and procedures) that prevented
Triumph from adequately administering and monitoring its NSF contract in compliance with
contract terms and conditions and federal requirements. These control weaknesses led to the



                                                2
                                                                NSF OIG Audit Report No. OIG-06-1-001


questioned costs. Specifically, contract briefs did not identify applicable contract ceiling rates,
therefore the Triumph staff did not know to apply contract ceiling rates when preparing incurred
cost submissions. As a result, the contractor failed to make the proper cost exclusions for the
NSF contract in Schedule I3 of the incurred cost submissions. This Schedule I is designed to
ensure that claimed indirect cost rates do not exceed contract ceiling rates, if properly executed.
In addition, Triumph’s subcontract cost monitoring procedures did not ensure that costs billed by
and paid to its subcontractor were accurate and sufficiently documented. DCAA recommended
to Triumph that it establish written policies and procedures to correct the deficiencies.4 Triumph
agreed to make the necessary changes to its policies.

Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

    1. Reduce the FY 2001 to 2003 claimed costs for Contract DMI-0200639 by $80,740
       identified as questioned costs in the accompanying DCAA audit report.

    2. Request Triumph to review and resubmit as needed its incurred cost submissions for FYs
       2004 and 2005, ensuring that claimed indirect cost rates do not exceed contract ceiling
       rates and that claimed subcontract costs are accurate, properly supported by and readily
       reconcilable to subcontractor invoices.

    3. To prevent similar issues from recurring in incurred cost submissions beyond FY 2005,
       ensure that Triumph has established written policies and procedures that require the
       appropriate Triumph staff to:

            a. Identify all contract ceiling rates in contract briefs.
            b. Exclude all costs in excess of contract limitations on Schedule I of the incurred
                cost submissions to ensure claimed rates are reduced to ceiling rates whenever
                actual rates are higher than ceiling.
            c. Monitor all subcontract costs to ensure that costs paid to the subcontractor and
                claimed on incurred cost submissions are (1) readily reconcilable to subcontractor
                billing statements, (2) sufficiently detailed on invoices to determine whether they
                are necessary and allowable in accordance with the terms of the subcontract, and
                (3) correctly classified in the accounting records as subcontract costs.

      4. Whenever NSF issues a contract with indirect ceiling rates, establish a process to
         perform initial reviews of incurred cost submissions, and, if the contractor claims rates
         which exceed the contract ceiling rates, require the contractor to resubmit its incurred
         cost submission to reflect the ceiling rates in accordance with the contract.



3
  Schedule of Cumulative Direct and Indirect Costs Claimed and Billed on Cost/Flexibly Priced and T&M Contracts
and Subcontracts. This schedule includes a deduction for costs in excess of contract ceiling rates.
4
  See Appendix 1, Other Matters to be Reported, in the DCAA audit report.



                                                       3
                                                      NSF OIG Audit Report No. OIG-06-1-001


We consider the issues in the audit report to be significant. The findings in the DCAA audit
report should not be closed until NSF verifies that our recommendations have been adequately
addressed and proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to the Engineering Directorate/Industrial
Innovation and Partnerships (ENG/IIP). The responsibility for audit resolution rests with DACS.
Accordingly, we ask that no action be taken concerning the report’s findings without first
consulting DACS at (703) 292-8242.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

      •   Reviewed DCAA’s approach and planning of the audit;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
          progress, findings and recommendations;
      •   Reviewed the audit report prepared by DCAA to ensure compliance with Government
          Auditing Standards and Office of Management and Budget Circulars; and
      •   Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor’s report on Triumph and the conclusions expressed
in the report. The NSF OIG does not express any opinion on Triumph’s incurred cost
submissions, accounting system, or the conclusions presented in DCAA’s audit report.

We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.


Attachment: DCAA Audit Report of Triumph Technologies Inc.’s Incurred Costs
            for Fiscal Years 2001 through 2003


cc:       Kesh Narayanan, ENG/IIP




                                              4
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 6141-2003V10100009

                                                                          July 28, 2006

PREPARED FOR: Office of Inspector General
              National Science Foundation
              ATTN: Ms. Deborah H. Cureton
              4201 Wilson Boulevard, Suite 105
              Arlington, VA 22230

PREPARED BY:      DCAA Baltimore Branch Office
                  8441 Belair Road, Suite 102
                  Baltimore, MD 21236-3024
                       Telephone No.      (410) 962-3857
                       FAX No.            (410) 962-9976
                       E-mail Address     dcaa-fao6141@dcaa.mil

SUBJECT:          Report on Audit of Incurred Cost for Fiscal Year 2003

REFERENCES::      Contract No.: DMI-0200639
                  Relevant Dates: See Page 9
                  6141/820.5/dkg

CONTRACTOR:       Triumph Technologies, Inc. (080F4)
                  5203 Leesburg Pike, Suite 1100
                  Falls Church, VA 22041

REPORT RELEASE RESTRICTIONS: See Page 11

                                                                                 Page
CONTENTS:         Subject of Audit                                                 1
                  Executive Summary                                                1
                  Scope of Audit                                                   1
                  Results of Audit                                                 2
                  Contractor Organization and Systems                             8
                  DCAA Personnel and Report Authorization                          9
                  Audit Report Distribution and Restrictions                      10
                  Appendixes                                                      12




                         XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009

                                     SUBJECT OF AUDIT

        We examined the Triumph Technologies, Inc.’s (Triumph) October 6, 2004 certified
final indirect cost rate proposal and related books and records for reimbursement of FY 2003
incurred costs. The purpose of the examination was to determine allowability of direct and
indirect costs and establish audit determined indirect cost rates for January 1 through
December 31, 2003. The proposed rates apply primarily to the flexibly priced contract listed in
Exhibit A. A copy of Triumph’s Certificate of Final Indirect Costs was faxed to our office on
October 6, 2004 and is included as Appendix 2 to the report.

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.


                                   EXECUTIVE SUMMARY

       We questioned a total $80,740 in proposed costs for Contract No. DMI-0200639. The
questioned costs consist of $79,548 for costs incurred in excess of contract ceilings and $1,192
in unsupported subcontract costs for Contract No. DMI-0200639. See Exhibit B for details.


                                      SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

       • evaluating the contractor’s internal controls, assessing control risk, and determining
         the extent of audit testing needed based on the control risk assessment;
       • examining, on a test basis, evidence supporting the amounts and disclosures in the data
         and records evaluated;
       • assessing the accounting principles used and significant estimates made by the
         contractor;
       • evaluating the overall data and records presentation; and
       • determining the need for technical specialist assistance.

       We evaluated the proposal using the applicable requirements contained in the:

       • Federal Acquisition Regulations (FAR);
       • National Science Foundation Acquisition Regulations (NSFAR); and
       • Contract provisions.

        The contractor claims exemption under 48 CFR 9903.201-1(b)(3) from the practices
required by the cost Accounting Standards Board rules and regulations because it considers itself
a small business concern.


                              XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009

       We consider Triumph’s accounting system to be adequate for accumulating and billing
costs on Government contracts. We have not specifically examined Triumph’s estimating
system and its related internal controls (see Contractor Organization and Systems section.) The
scope of our examination reflects our assessment of control risk and includes tests of compliance
with applicable laws and regulations that we believe provide a reasonable basis for our opinion.

       The concurrent verification of labor was omitted in this examination.


                                        RESULTS OF AUDIT

        Indirect Rates: In our opinion, the contractor’s Customer Site Overhead and G&A
indirect rates are acceptable as proposed and are as follows.

                    FY 2003 – January 1, 2003 through December 31, 2003
                Indirect Category         Base          Rate    Reference
                OH Customer Site        XXXXXX         XXXX         (a)
                G&A                     XXXXXX         XXXX         (b)

       Allocation Bases:
       (a) Direct Labor Dollars
       (b) Total Incurred Costs Exclusive of G&A and IR&D/B&P Costs

       The National Science Foundation (NSF) requested us to review the costs for the Contract
No. DMI-0200639 for the period November 15, 2001 through December 31, 2003. We had
previously performed incurred cost audits of FYs 2001 and 2002 under Assignment Nos. 6141-
2001V10100013 and 6141-2002V10100013, respectively. No costs were questioned in either
assignment. However, the direct costs for the NSF contract had not been included in our scope
because it was not a Department of Defense contract and we did not have a request to audit the
NSF contract at that time. Therefore, we verified the direct costs related to the NSF Contract
No. DMI-0200639 for the period November 15, 2001 through December 31, 2003 as part of this
examination. We found that the contractor’s indirect costs exceeded the contract ceilings by
$79,548 for the three year period. Details are listed in Exhibit B.

       Direct Costs: In our opinion, the contractor’s claimed direct costs are acceptable as
adjusted by our examination. For Contract No. DMI-0200639, we questioned unsupported direct
costs amounting to $179 in FY 2002 and $1,013 in FY 2003 that were proposed under
Government contracts. Questioned direct costs by element within the specific contract are
presented in Exhibit B. The assist audit report, regarding the unsupported subcontract costs, is
attached as Appendix 5 to this report. Direct costs not questioned are provisionally approved,
pending final acceptance. Final acceptance of amounts proposed under Government contracts
does not take place until performance under the contract is completed and accepted by the
cognizant authorities and the audit responsibilities have been completed.

                                                2

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009



       Penalties for Unallowable Costs: The affected contract does not contain the FAR 42.709
penalty clause.

       Other matters to be reported are discussed in Appendix 1.

                     GOVERNMENT PARTICIPATION FOR FY 2003

                                      FY 2003 Government           FY 2003 Government
                                         Flexibly Priced            FFP Contracts and
                                      Contracts/Subcontracts        Commercial Work
        Overhead-Customer Site            XXXXXX                     XXXXXX
        G&A                               XXXXXX                     XXXXXX

       A schedule of flexibly priced contracts is included in Exhibit A of this report.

       Cumulative Allowable Cost Worksheet (CACWS): The costs noted on the Schedule of
Cumulative Allowable Costs is included in Attachment 1 of the Indirect Cost Rate Agreement
and represent costs that are considered allowable under the listed contracts and are, therefore,
reimbursable. For those contracts identified as “Ready to Close,” the information on the
CACWS should be used to close out contracts. Individual contract audit closing statements will
only be issued if requested by the ACO.

        We discussed the results of our examination with Ms. Clarissa Van Leuven, Director of
Finance, in an exit conference held on June 29, 2006. The contractor concurred with our results.
The contractor’s agreement regarding the audit results and calculations of costs in excess of
contract ceilings on Contract No. DMI-0200639 is included as Appendix 3 of this report. The
Indirect Cost Rate Agreement is included as Appendix 4.




                                                3

                              XXXXXXXXXXXXXXXXXXXXX
    Audit Report No. 6141-2003V10100009                                          EXHIBIT A

                      SCHEDULE OF FLEXIBLY PRICED CONTRACTS

Internal Job No.             Agency              Contract No.   Penalty Clause for Unallowable Costs
      2015         National Science Foundation   DMI-0200639                     No




                                                 4

                               XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                                  EXHIBIT B

SUMMARY OF PROPOSED AND ACCEPTED COSTS FOR CONTRACT No. DMI-0200639

                                                           Questioned
                              Proposed       Total     Concurred   Non-Concurred
           FY 2001            $62,264          $761           $761             $-
           FY 2002            666,955        21,590         21,590              -
           FY 2003         $1,030,115       $58,389        $58,389             $-
           Total           $1,759,334       $80,740        $80,740             $-

                         QUESTIONED INDIRECT COSTS (Note 1)

                    FY 2001               FY 2002                    FY 2003                Total
               CS OH       G&A           CS OH       G&A          CS OH      G&A
 Claimed    XXXX          XXXX           XXXX        XXXX         XXXX         XXXX        $-
 Questioned XXXX          XXXX           XXXX        XXXX         XXXX         XXXX     79,548 *

* - $1 difference due to rounding.

                          QUESTIONED DIRECT COSTS (Note 2)
                             FY 2002            FY 2003                             Total
                        Subcontracts     Material     Subcontracts     Material
          Claimed             XXXX         XXXX            XXXX           XXXX        $-
         Questioned           XXXX         XXXX            XXXX             -       1,192

EXPLANATORY NOTES

1. Indirect Costs

    a. Summary of Conclusions: We take exception to a total of $79,548 proposed contract
costs because the contractor’s claimed costs exceeded the indirect ceiling rates for Contract No.
DMI-0200639.

   b. Basis of Contractor’s Cost: The basis of the contractor’s costs for Contract No. DMI-
0200639 are the incurred costs for the period November 15, 2001 through December 31, 2003.

   c. Audit Evaluation: We reviewed the master Contract No. DMI-0200639 to determine the
contract limitations. The contract states, “A maximum ceiling on overhead and G&A rates of
5% over the provisional billing rates was established for the life of the contract.” The
provisional billing rates, as stated in the contract, were XXXXX for Customer Site Overhead and
XXXX for G&A. It was unclear whether the ceiling rates were 5 percentage points or 105%

                                                 5

                               XXXXXXXXXXXXXXXXXXXXX
 Audit Report No. 6141-2003V10100009                                                     EXHIBIT B

 over the provisional billing rates. The NSF representatives stated the ceiling rates equaled 105%
 of the provisional billing rates and should be XXXX for Customer Site Overhead and XXXX for
 G&A. We compared the indirect rates for FY 2001 through FY 2003 to the contract ceiling rates
 and found the actual indirect rates exceeded the contract ceiling rates every year.

      d. Contractor’s Reaction: The contractor concurred with our analysis. See Appendix 3 for
the contractor’s concurrence.

      e. Auditor’s Response: The auditor suggested the contractor improve their internal controls
by listing the contract ceilings in the contract briefs and to exclude costs in excess of ceiling rates
from their submissions. See Appendix 1 for Other Matters to be Reported.

 2. Direct Costs

    a. Summary of Conclusions: We take exception to $1,192 in proposed direct contract costs
 because the contractor’s claimed costs were unsupported by underlying records.

    b. Basis of Contractor’s Cost: The basis of the contractor’s costs for Contract No. DMI-
 0200639 are the incurred costs for the period November 15, 2001 through December 31, 2003
 and amounts recorded in Triumph’s books and records.

     c. Audit Evaluation: During our review of Triumph’s incurred cost proposal, we noted
 large subcontract costs on Contract No. DMI-0200639 that were related to one subcontractor,
 Advanced Resource Technologies, Inc. (ARTI). Therefore, we requested an assist audit from the
 DCAA Rosslyn Branch to verify the XXXXX in subcontract costs to ARTI’s books and records.
 The assist audit verified XXXXXX in subcontract costs to ARTI’s books and records (see Assist
 Audit Report in Appendix 5). We requested that Triumph reconcile the $16,830 variance
 between Triumph’s claimed costs and ARTI’s books and records. Triumph found that in FY
 2002, XXXXXXX in subcontract labor costs had inadvertently been recorded as direct material
 instead of subcontract costs to Contract No. DMI-0200639. For FY 2002, the direct material
 costs should be XXXXX, but the contractor claimed XXXXXX; and the subcontract costs
 should be XXXXX but Triumph’s records claimed XXXXX. We subtracted the XXXXX error
 from the claimed direct materials and added XXXXXX to the subcontract costs. We compared
 the annual subcontract costs to the assist audit report and found there was a $1,192 variance
 between Triumph’s records and ARTI’s books and records. We asked Triumph to once again
 reconcile the $1,192 in subcontract costs. Triumph found that ARTI was not able to support
 $1,192 the claimed labor costs and agreed to refund Triumph $1,192. Therefore, we adjusted the
 allowable subcontract costs by $1,192 for the unsupported subcontract labor costs. We also
 verified the costs for Contract No. DMI-0200639 to the contractor’s job cost summaries and
 labor distribution reports for the period November 15, 2001 through December 31, 2003. We
 also reconciled the allowable contract costs by element from the calendar year to the contract
 year as requested by NSF to facilitate closeout procedures. The schedule of costs by element is
 shown below:


                                                    6

                                 XXXXXXXXXXXXXXXXXXXXX
         Audit Report No. 6141-2003V10100009                                              EXHIBIT B

                 ALLOWABLE COSTS BY ELEMENT FOR CONTRACT NO. DMI-0200639
                     Direct
 Contract Year       Labor       Travel   Material     ODCs      Subcontracts   CS OH       G&A           Total
11/15/01-11/14/02    XXXX        XXXX       XXXX       XXXX          XXXX        XXXX        XXXX         $630,482
11/15/02-11/14/03    XXXX        XXXX       XXXX       XXXX          XXXX        XXXX        XXXX          959,373
11/16-12/31/03       XXXX        XXXX       XXXX       XXXX          XXXX        XXXX        XXXX           88,739
Total                XXXX        XXXX       XXXX       XXXX          XXXX        XXXX        XXXX     $1,678,594

             d. Contractor’s Reaction: The contractor concurred with our analysis. See Appendix 3 for
         the contractor’s concurrence.

            e. Auditor’s Response: The auditor suggested the contractor improve their internal controls
         and monitoring process for subcontract costs to ensure accurate reporting of costs. See
         Appendix 1 for Other Matters to be Reported.




                                                       7

                                      XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009

                   CONTRACTOR ORGANIZATION AND SYSTEMS

1.     Organization

       Triumph Technologies, Inc. (Triumph) was incorporated in the Commonwealth of
Virginia on September 22, 1988. Gloria Redman is the President and 100% shareholder of this
S-Corporation whose corporate headquarters are located in Falls Church, Virginia. The
company has three divisions: Program Management, Information Technology, and Security
Services. The majority of the company’s $28 million revenues in FY 2005 is derived from sales
to Government entities, with approximately 260 employees.

2.     Accounting System

        Triumph’s accounting period is from January 1 to December 31. The contractor
maintains a job order cost accounting system on an accrual basis in accordance with generally
accepted accounting principles. Triumph’s accounting system is posted on a current basis.
Appropriate adjusting entries are made at the end of each month and at year end. Triumph uses
Deltek software for its accounting system. The contractor prepares financial statements on an
annual basis. The annual financial statements are not audited by external CPAs. We performed
a Preaward accounting system survey under Assignment No. 6141-2006V17740010 and consider
the company’s accounting system to be adequate for the accumulation, segregation and reporting
of costs under Government contracts and subcontracts.

3.     Billing System

       We have not reviewed the billing system at Triumph.

4.     Estimating System:

       We have not reviewed the estimating system at Triumph.




                                              8

                            XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009

                                      DCAA PERSONNEL

                                                        Telephone No.
Primary contacts regarding this audit:

          Anne Small, Auditor                           (610) 878-2864
          James F. Brennan, Jr., Supervisory Auditor    (610) 878-2894

Other contacts regarding this audit report:

          Scott C. Hahn, Branch Manager                 (410) 962-3857
          Ms. Teresa A. Lawson, Sr. Non-DoD FLA         (703) 767-2265

                                                        FAX No.
                                                        (410) 962-9976
                                                        (703) 767-2057 (FLA)

                                                        E-mail Address
                                                        dcaa-fao6141@dcaa.mil
                                                        dcaa-srfla-nondod@dcaa.mil (FLA)


General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

Request for audit: dated July 21, 2005; received August 3, 2005.
Request for Assist Audit: dated November 7, 2005.
Assist Audit Report: dated December 21, 2005; received December 21, 2005;
Supplemental Assist Audit Report: dated December 28, 2005; received December 29, 2005.
Request for 30 additional hours: dated March 21, 2006; request granted April 13, 2006.
Request for extension of due date: July 5, 2006; extension granted to July 21, 2006.



AUDIT REPORT AUTHORIZED BY:


                                                             /s/ Joseph Baron
                                                       /for/ SCOTT C. HAHN
                                                             Branch Manager
                                                             DCAA Baltimore Branch Office



                                               9

                              XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009

               AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

DISTRIBUTION
                                                        E-mail Address

Office of Inspector General                             dcureton@nsf.gov
National Science Foundation                             smcgrego@nsf.gov
ATTN: Deborah H. Cureton, Assoc. Insp. Gen. for Audit   pswillia@nsf.gov
        Sherry L. McGregor, Attorney Advisor            jcjenkin@nsf.gov
        Patricia S. Williams, Contracting Officer       dwillems@nsf.gov
        Jannifer C. Jenkins, Senior Audit Manager
        David A. Willems, Audit Manager
4201 Wilson Boulevard, Suite 105
Arlington, VA 22230

Sr. Financial Liaison Advisor (Non-DoD)                 dcaa-srfla-nondod@dcaa.mil
Defense Contract Audit Agency
ATTN: Teresa A. Lawson, Non-DoD FLA                     Telephone No.
8725 John J. Kingman Road, Suite 2135                   (703) 767-2265
Fort Belvoir, VA 22060-6219

Administrative Contracting Officer                      gloria.person@dcma.mil
DCMA Virginia
ATTN: Gloria L. Person
10500 Battleview Parkway, Suite 200
Manassas, VA 20109-2362

DCMA Virginia                                           althea.knight@dcma.mil
ATTN: Althea Knight, DCAA
10500 Battleview Parkway, Suite 200
Manassas, VA 20109-2362

DCMA Maryland                                           bmisek@dcma.mil
ATTN: GTOL, CLOSEOUT Team/Barbara Misek
217 East Redwood Street, Suite 1800
Baltimore, MD 21202-5299

Triumph Technologies, Inc.                              (Copy furnished thru ACO)
5203 Leesburg Pike, Suite 1100
Falls Church, VA 22041



                                           10

                           XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                                   EXHIBIT B

RESTRICTIONS

1. Information contained in this audit report may be proprietary. It is not practical to identify
   during the conduct of the audit those elements of the data which are proprietary. Make
   proprietary determinations in the event of an external request for access. Consider the
   restrictions of 18 U.S.C. 1905 before releasing this information to the public.

2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
   refer any Freedom of Information Act requests for audit reports received to the cognizant
   contracting agency for determination as to releasability and a direct response to the
   requestor.

3. Do not use the information contained in this audit report for purposes other than action on the
   subject of this audit without first discussing its applicability with the auditor.




                                                11

                              XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                                APPENDIX 1

                          OTHER MATTERS TO BE REPORTED

Internal Control System

    We have not performed a formal review of the internal control system of Triumph. Previous
examinations have not disclosed significant deficiencies in the contractor’s internal control
system. The scope of our examination reflects our assessment of control risk and includes tests
of compliance with laws and regulations that we believe provide a reasonable basis for our
opinion. Our assessment of control risk reflects that we have not specifically tested the
effectiveness of Triumph’s systems of internal controls.

   We performed and accounting system survey under Assignment No. 6141-2006V27000010
and consider the company’s accounting system to be adequate for the accumulation, segregation
and reporting of costs under Government contracts and subcontracts.

   At the conclusion of the audit, on June 29, 2006, the auditor e-mailed Ms. Clarissa Van
Leuven, Director of Finance, three suggestions to improve Triumph’s internal controls. They
were as follows:
   •   Contract Briefs: The contract briefs should provide the actual ceiling rates. Currently,
       the brief merely stated that there are ceilings. We would have avoided months of
       deliberations on what the actual ceiling rates were on Contract No. DMI-0200639. There
       should be written policies and procedures in place regarding the preparation of contract
       briefs. The contract briefs should be prepared as soon as possible after the contract has
       been negotiated and the actual ceiling rates should be written in the briefs.

   •   Schedule I of the Incurred Cost Submissions: The contractor is supposed to exclude
       costs in excess of contract limitations on the Schedule I of the incurred cost submissions.
       Triumph’s FY 2003 incurred cost proposal had no costs excluded from the claimed costs
       on the NSF contract. We recommend written procedures so that employees preparing the
       incurred cost submission are aware of the importance of excluding costs in excess of
       contract ceilings or other limitations.

   •   Subcontract Costs: During the audit, we found errors and billings by the subcontractor in
       excess of costs. We recommend you improve the policies and procedures regarding
       subcontract costs to make certain your costs and the subcontractor's claimed costs are
       accurate. The policies and procedures should be documented so that all employees know
       how to monitor the subcontract costs to assure accuracy.
    Ms. Clarissa Van Leuven responded by stating the following: “Thank you for the
recommendations. I will pass them on and we will make the necessary changes to our policies. I
appreciate any information that helps us do a better job.”




                                               12

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                         APPENDIX 2

              FY 2003 CERTIFICATE OF FINAL INDIRECT COSTS



.




                                      13

                        XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                    APPENDIX 3

                    CONTRACTOR AGREEMENT
  TO DCAA’S CALCULATION OF COSTS IN EXCESS OF CONTRACT CEILINGS




                                      14

                         XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009              APPENDIX 4




                                      15

                         XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009              APPENDIX 4




                                      16

                         XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                           APPENDIX 4




                                               17

                                      XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                        APPENDIX 5

                              ASSIST AUDIT REPORT


             DEFENSE CONTRACT AUDIT AGENCY

               REPORT NO. 6331– 2006D17900001 S1

                                                                 December 28, 2005

PREPARED FOR: Baltimore Branch Office
              King of Prussia Suboffice
              ATTN: James F. Brennan, Jr., Supervisory Auditor
              700 American Avenue, Suite 105
              King of Prussia, PA 19406-4031

PREPARED BY:       DCAA Rosslyn Branch Office
                   6800 Versar Center, Suite 329
                   Springfield, VA 22151-4147
                        Telephone No.      (703) 325-9542
                        FAX No.            (703) 325-0411
                        E-mail Address     dcaa-fao6331@dcaa.mil

SUBJECT:           Supplement to Report on Application of Agreed-Upon Procedures

REFERENCES:        Prime Contract DM1-0200639
                   Subcontract No. 01-2015
                   Triumph Technologies, Inc
                   Relevant Dates: See Page 4

CONTRACTOR:        Advanced Resource Technologies, Inc. (ARTI)
                   2800 Eisenhower Avenue, 4th Floor East
                   Alexandria, VA 22314

REPORT RELEASE RESTRICTIONS: See Page 5
                                                                                     Page
CONTENTS:      Subject of Supplemental Application of Agreed-Upon Procedures          1
               Scope of Supplemental Application of Agreed-Upon Procedures            1
               Results of Supplemental Application of Agreed-Upon Procedures          2
               Contractor Organization and Systems                                    3
               DCAA Personnel and Report Authorization                                4
               Report Distribution and Restrictions                                   5



                                          18

                         XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                              APPENDIX 5



SUBJECT OF SUPPLEMENTAL APPLICATION OF AGREED-UPON PROCEDURES

       As requested by the Defense Contract Audit Agency, Baltimore Branch Office, King of
Prussia Suboffice in a memorandum dated November 7, 2005, modified on November 23, 2005,
reference 6141-2003V101000009, and as discussed subsequently with your office, we applied
agreed-upon procedures to verify Triumph Technologies’ subcontractor costs billed from
Advanced Resource Technologies Inc. in correlation to Prime Contract DM1-0200639,
Subcontract No. 01-2015 for the period of FY 2001-FY 2003.


  SCOPE OF SUPPLEMENTAL APPLICATION OF AGREED-UPON PROCEDURES

        We have performed the mutually agreed-upon verification procedures listed below solely
to assist you in evaluating Triumph Technologies’ subcontractor costs billed from Advanced
Resource Technologies Inc, in correlation to Subcontract No. 01-2015 for the period of FY
2001- FY 2003. This agreed-upon procedures engagement was performed in accordance with
generally accepted government auditing standards. The sufficiency of the procedures is solely
the responsibility of the requestor. Consequently, DCAA makes no representation regarding the
sufficiency of the procedures described below, either for the purpose for which this report has
been requested or for any other purpose.

The following Agreed-Upon Procedures were applied:

         Reconcile Advanced Resource Technologies Inc.’s regular and overtime hours claimed
         on Triumph Technologies, Inc. Prime Contract DM1-0200639 Subcontract no. 01-2015
         (FY 2001 - FY 2003) to Advanced Resource Technologies Inc.’s labor distribution
         reports, timesheets, etc.

         Verify the Subcontract Regular and Overtime labor rates.




                                              19

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                                 APPENDIX 5



RESULTS OF SUPPLEMENTAL APPLICATION OF AGREED-UPON PROCEDURES

        This report pertains only to the performance of agreed-upon procedures to verify
subcontractor costs incurred by Triumph Technologies, Inc. from Advanced Resource
Technologies Inc. We were not engaged to, and did not perform an examination, the object of
which would be the expression of an opinion on the subject matter of this report. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you. This supplemental
report replaces our original report in its entirety.

        The application of agreed-upon procedures verified the cumulative total of Triumph
Technologies’ subcontractor costs billed from Advanced Resource Technologies Inc. in
correlation to Subcontract No. 01-2015 for the period requested.


                             Claimed                 Verified               Difference

       FY2001          $   21,335             $    21,335             $      0.00

       FY2002          $ 175,344              $    193,187            $   (17,843)

       FY2003          $ 243,840              $    242,827            $    1,013

        Total          $ 440,519              $    457,349            $   (16,830)



Summary of Conclusions: Based on our cost verification, we found a cumulative cost variance
of $(16,830). The negotiated rates were verified to the contract, and the hours claimed were
verified to the contractor’s books and records.

Basis of Contractor’s Cost: Advanced Resource Technologies’ invoices used to bill Triumph
Technologies, Inc. for subcontract costs from prime contract DM1-0200639, subcontract
No. 01-2015.

Agreed-Upon Procedures Evaluation: The application of agreed-upon procedures verified the
cumulative total of Triumph Technologies’ subcontractor costs billed from Advanced Resource
Technologies Inc. in correlation to Subcontract No. 01-2015 for the period requested.

Contractor’s Reaction: We discussed our findings with Mr. Bill Beavers, CFO, in an exit
conference held on November 23, 2005. The contractor concurred with our findings.




                                              20

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                                  APPENDIX 5



                    CONTRACTOR ORGANIZATION AND SYSTEMS

Organization

       ARTI and Subsidiaries (Q Systems, Inc. and Data Base Architects, Inc.) provide
technical and professional services to the US Government and commercial customers. Advanced
Resource Technologies Inc, and Subsidiaries reported fiscal year 2001 revenues of $36,001,015
with the US Government accounting for approximately 98 percent of its business. The
contractor has approximately 384 employees.

Contractor's Accounting System

(1)    The contractor maintains a job order cost accounting system utilizing the DELTEK
       software accounting system.

(2)    Direct costs are accumulated and segregated by a project number associated with a
       particular contract number.

(3)    Indirect costs are accumulated in eight expense pools: Overhead RMO (ARTI), Overhead
       ITO (ARTI), Overhead Oakridge (Q Systems), Overhead Customer site (Q Systems),
       Overhead DBA (DBA), G&A Expenses and Subcontract Administration.

       (a)     The overhead pools consist of operational costs such as project management
               salaries, office expense, computer expense, incentive bonus, insurance expense,
               facilities cost, and fringe benefit expenses. The allocation base is direct labor and
               IR&D/B&P labor dollars.

       (c)     The G&A pool is composed of expenses incurred for the company as a whole,
               such as executive salaries, support salaries, legal services, accounting, and B&P
               expenses. The allocation base is value added.

       (d)     The subcontract administration pool is composed of expenses incurred for the
               administration of subcontracts. The allocation base is total subcontract costs.

(4)    We consider the contractor's accounting system to be adequate for the accumulation,
       segregation and recording of costs incurred under US Government contracts.




                                                21

                              XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                             APPENDIX 5

                                     DCAA PERSONNEL

                                                                       Telephone No.
Primary contact regarding this agreed-upon procedures
evaluation:
         Sherry D. Konzman, Supervisory Auditor             (703) 325-9542

Other contact regarding this agreed-upon procedures
report:
         Donald J. McKenzie, Branch Manager                 (703) 325-9542


                                                                        FAX No.
         Rosslyn Branch Office                              (703) 325-0411


                                                                     E-mail Address
         Rosslyn Branch Office                              dcaa-fao6331@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.


                                     RELEVANT DATES

Request for Agreed-Upon Procedures Evaluation:      Original request dated September 23, 2005
                                                    Rescinded on October 26, 2005
                                                    Revised Request Dated November 7, 2005
                                                    Revised Request Dated November 23, 2005


REPORT AUTHORIZED BY:




                                                           /Signed/
                                                           Donald J. McKenzie
                                                           Branch Manager
                                                           DCAA Rosslyn Branch Office




                                               22

                             XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 6141-2003V10100009                                                 APPENDIX 5



                     REPORT DISTRIBUTION AND RESTRICTIONS


DISTRIBUTION

                                                                           E-mail Address
Defense Contract Audit Agency
Baltimore Branch Office
King of Prussia Suboffice
ATTN: James F. Brennan, Jr., Supervisory Auditor                   James.Brennan@dcaa.mil
ATTN: Anne Small, Auditor                                          Anne.Small@dcaa.mil
700 American Avenue, Suite 105
King of Prussia, PA 19406-4031



RESTRICTIONS

1. Information contained in this report may be proprietary. It is not practical to identify during
   the conduct of the evaluation those elements of the data which are proprietary. Make
   proprietary determinations in the event of an external request for access. Consider the
   restrictions of 18 U.S.C. 1905 before releasing this information to the public.

2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
   refer any Freedom of Information Act requests for reports received to the cognizant
   contracting agency for determination as to releasability and a direct response to the
   requestor.

3. Do not use the information contained in this report for purposes other than action on the
   subject of this evaluation without first discussing its applicability with the auditor.




                                                23

                              XXXXXXXXXXXXXXXXXXXXX
